          OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




                        Actions Needed For a More Strategic Approach
                              to U.S. Judicial Security Assistance

On December 18, 2009, the Special Inspector General for Afghanistan Reconstruction (SIGAR) released a
report assessing U.S. judicial security assistance to Afghanistan (SIGAR Audit-10-3). Due to the sensitive
nature of the issues discussed in the report, distribution was restricted to relevant agency and
congressional officials as Controlled Unclassified Information. SIGAR is providing the following
unrestricted summary of the report’s findings and recommendations for public distribution. Sensitive
information that could endanger U.S., allied, and Afghan lives and interests have been removed from
this summary.

WHAT SIGAR REVIEWED
SIGAR Audit-10-3 assessed U.S. assistance to Afghanistan in the area of judicial security with a focus on
support to the Judicial Security Unit (JSU) 1 and plans for a broader judicial security program. We
examined: (1) the approach used by U.S. agencies to provide judicial security assistance, and (2) the
factors that could affect the efficacy of such assistance. We conducted our work in Kabul, Afghanistan,
and Washington, D.C., from July to November 2009 in accordance with generally accepted government
auditing standards. During the course of the audit, SIGAR provided a letter to the U.S. Embassy on
October 11, 2009, outlining issues that needed immediate attention. The Embassy responded to these
concerns in a letter dated November 5, 2009. When preparing the final report, we considered written
comments from the U.S. Embassy in Kabul and incorporated information based on technical comments
from the Departments of Justice, State, and Defense.

SIGAR Audit-10-3 is part of a series of SIGAR audits addressing U.S. efforts to strengthen Afghanistan’s
anti-corruption capabilities and the rule of law.

WHAT SIGAR FOUND
The United States has been the single largest contributor to Afghanistan’s justice sector, investing more
than $160 million in the last two fiscal years. An effective judicial sector is essential to establishing rule
of law and good governance in Afghanistan. However, several reports and assessments highlight the risk
that Afghan judicial officials face in performing their duties. Enhancing the security of judicial officials is
an important element of the Afghanistan National Development Strategy and Afghanistan’s National
Anti-Corruption Strategy.

1
 Afghanistan’s Judicial Security Unit has also been referred to as the Judicial and Witness Security Protection Unit,
the Court Security Unit, and the Afghan Marshals Service in documents provided by U.S. agencies.


SIGAR Audit-10-3S Anti-Corruption/Rule of Law                                                                Page 1
Since 2007, the United States has provided training and infrastructure support to the JSU, a specialized
unit of the Counter-Narcotics Police of Afghanistan under the Ministry of Interior. U.S. agencies that
provide assistance include the Departments of Justice (DOJ), Defense (DOD), and State. The U.S.
Marshals Service (USMS), a component of DOJ, mentors and trains JSU personnel in courtroom and
personal security. DOJ also provides advisors to Afghan judicial institutions. DOD designed, funded, and
built a $4.5 million compound in Kabul to house and support the JSU. Completed in May 2009, the
compound consists of barracks, offices, a dining facility, and medical building. The State Department’s
Bureau for International Narcotics and Law Enforcement Affairs (INL) will fund the JSU compound’s
operations and maintenance, as well as procure its furniture, fixtures, and equipment. The U.S. Embassy
in Kabul’s Rule of Law office is involved in interagency and international discussions on justice sector
issues. 2

The U.S. and Afghanistan governments have begun discussions on the provision of additional judicial
security assistance. Discussions included proposals from both governments on the scope, size, funding,
and implementation phases of a broader judicial security program.

U.S. Assistance Lacks Key Elements of a Strategic Approach
U.S. judicial security assistance lacks key elements of a strategic approach and has at times been
uncoordinated. Best practices for implementing federal programs include such elements as leadership,
agreed upon standards, assessment of risk, and a planning process that takes into account requirements
and stakeholders. Taking a strategic approach to program implementation promotes transparency and
helps ensure that the program is based on a sound plan that can achieve results and reduce potential
risks to U.S. investments.

    •    Lead Agency to Coordinate U.S. Assistance

         Several U.S. agencies are responsible for developing, funding, and implementing U.S. judicial
         security assistance, but no single agency or individual has been officially designated to lead or
         coordinate U.S. efforts, which contributed to delays in opening the JSU compound. Moreover,
         there was no consensus among these agencies as to which agency should serve in that capacity.
         Best practices have shown that a lead agency or coordinator can serve as a focal point for
         integrating multi-agency efforts and ensuring effective program implementation. The U.S.
         Embassy proposed that its Rule of Law office be designated as the coordinator for future judicial
         security assistance in response to a letter SIGAR sent to the U.S. Embassy.

    •    Judicial Security Standards

         The U.S. and Afghan governments have not established judicial security standards. As a result,
         initial U.S. and Afghan proposals for a broader judicial security program varied widely in terms of
         size, scope, and cost. Commonly accepted standards help ensure organizational, management,
         and budgetary decisions are made consistently across organizations involved in a multi-agency
         or international effort. They also provide the basis for defining program requirements.




2
 Although we did not examine the full extent of international assistance for judicial security in Afghanistan, we
note that the U.S. government has coordinated with the French and British governments in planning and
implementing its judicial security assistance.

SIGAR Audit-10-3S Anti-Corruption/Rule of Law                                                               Page 2
    •   Judicial Security Assessments

        Although we are not able to discuss U.S. or Afghan efforts in conducting security assessments,
        we note that threat and risk assessments are important initial steps in defining and prioritizing
        program requirements. These assessments are necessary to determine, among other things,
        the number of security personnel and quantity and type of equipment needed to protect judicial
        personnel.

    •   Planning for JSU Compound

        Although construction of the $4.5 million JSU compound was completed in May 2009, it
        remained dormant without water, electricity, or furniture for more than six months because of
        delays in funding its operations and maintenance and in purchasing furniture, fixtures, and
        equipment. Two factors contributed to these delays. First, requirements for operating and
        furnishing the compound were not included in the construction contracting documents.
        Identifying specific funding and other resources required to implement a program is a standard
        strategic planning practice. Second, not all stakeholders were involved early in the planning
        process, in part, because there was no lead agency to coordinate such efforts. Involving
        stakeholders in the planning process can help in identifying and fulfilling such requirements.
        Because operations and maintenance and furniture, fixtures, and equipment requirements were
        not identified early in the planning process, USMS and INL spent several months refining
        requirements for the compound and deliberating over contract implementation. Following the
        clarification of requirements, cost estimates for operations and maintenance exceeded the
        allocated funding level.

Additional Challenges Could Hinder Plans for a Broader Judicial Security Program
As U.S. agencies work with Afghan officials to develop a broader judicial security program, they will
likely encounter several issues related to planning, manpower, command structure, and jurisdiction. For
example, the Afghan government’s initial proposal estimated costs for salaries, uniforms, equipment,
and vehicles, but did not include infrastructure requirements for facilities to train the security force or to
provide offices throughout Afghanistan. In addition, the Ministry of Interior has agreed to loan
additional personnel from another unit to the JSU. However, questions remain over the command
structure for these additional personnel. In its technical comments, the Combined Security Transition
Command – Afghanistan said that command structures issues had been resolved.

WHAT SIGAR RECOMMENDED
Action is needed to ensure that progress made in establishing the JSU is not lost and that
implementation challenges are mitigated as the United States and Afghanistan work together to develop
a broader judicial security program. The United States could otherwise run the risk of committing to an
investment greater than anticipated or building a security force that the government of Afghanistan
cannot sustain.

SIGAR made a total of six recommendations to the U.S. Ambassador to Afghanistan and INL. We
recommended that the U.S. Ambassador designate a lead agency or office with responsibility for
coordinating the planning and implementation of multi-agency U.S. judicial security assistance. We
further recommended that the designated lead agency or office: (1) assist Afghan government partners
in establishing judicial security standards and developing appropriate job descriptions for members of
current and future Afghan judicial security forces; and (2) fully involve important stakeholders in the

SIGAR Audit-10-3S Anti-Corruption/Rule of Law                                                        Page 3
planning process, especially those stakeholders who could provide potential funding for infrastructure,
equipment, or operations and maintenance. Other recommendations are not included in this summary.

The U.S. Embassy concurred with the report’s findings and recommendations and outlined actions that
have been taken in response to our recommendations. These actions include the appointment of a lead
agency and the establishment a multi-agency planning team with relevant stakeholders. While we
welcome the actions already taken, we reiterate the need for working with Afghan government partners
to establish security standards. Collectively, our recommendations can help U.S. agencies determine the
size, scope, and implementation phases of a judicial security program that is based on prioritized needs
of key judicial officials. To prioritize these needs, however, U.S. and Afghan officials need to establish
security standards and conduct security assessments based on those standards.




ABBREVIATIONS

DOD       Department of Defense
DOJ       Department of Justice
JSU       Judicial Security Unit
INL       Bureau for International Narcotics and Law Enforcement Affairs
SIGAR     Special Inspector General for Afghanistan Reconstruction
USMS      United States Marshals Service




(This report was conducted under the audit project code SIGAR-007A).


SIGAR Audit-10-3S Anti-Corruption/Rule of Law                                                     Page 4
SIGAR’s Mission                      The mission of the Special Inspector General for Afghanistan
                                     Reconstruction is to enhance oversight of programs for the
                                     reconstruction of Afghanistan by conducting independent and
                                     objective audits, inspections, and investigations on the use of
                                     taxpayer dollars and related funds. SIGAR works to provide
                                     accurate and balanced information, evaluations, analysis, and
                                     recommendations to help the U.S. Congress, U.S. agencies, and
                                     other decision-makers to make informed oversight, policy, and
                                     funding decisions to:

                                     •   improve effectiveness of the overall reconstruction strategy
                                         and its component programs;
                                     •   improve management and accountability over funds
                                         administered by U.S. and Afghan agencies and their
                                         contractors;
                                     •   improve contracting and contract management processes;
                                     •   prevent fraud, waste, and abuse; and
                                     •   advance U.S. interests in reconstructing Afghanistan.

Obtaining Copies of SIGAR            To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies              SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                     reports, testimonies, and correspondence on its Web site.

To Report Fraud, Waste, and          To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan                 allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs              reprisal contact SIGAR’s hotline:

                                         •      Web: www.sigar.mil/fraud
                                         •      Email: hotline@sigar.mil
                                         •      Phone Afghanistan: +93 (0) 700-10-7300
                                         •      Phone DSN Afghanistan 318-237-2575
                                         •      Phone International: +1-866-329-8893
                                         •      Phone DSN International: 312-664-0378
                                         •      U.S. fax: +1-703-604-0983

Public Affairs                       Public Affairs Officer
                                        • Phone: 703-602-8742
                                        • Email: PublicAffairs@sigar.mil
                                        • Mail: SIGAR Public Affairs
                                             400 Army Navy Drive
                                             Arlington, VA 22202




SIGAR Audit-10-3S Anti-Corruption/Rule of Law                                                 Page 5
